                                                 UNITED STATES

                             SECURITIES AND EXCHANGE COMMISSION
                                          WASHINGTON,     D.C . 20549



     OFFICE OF                             MEMORANDUM
INSPECTOR GENERAL


                                                  March 10,2014


       TO: 	         Jeffery Heslop 

                     Chief Operating Officer 


       FROM: 	       Carl W. Hoecker    /".,!lv/-Jt~

                     Inspector General l1£/   

       SUBJECT: 	 Investigative Memorandum IM-14-001: Employee Exi t Process - Records
                  Review

       The Office oflnspector General (OIG) recently investigated an employee ' s attempt to remove
       nonpublic information from the Securities and Exchange Commission (SEC). That employee
       was terminating their employment with the SEC and had nearly completed the exit process. The
       Office of Support Operations Office of Records Management Services (ORMS) noted federal
       records contained within eight boxes that the separating employee was sending to the employee' s
       new private sector employer. ORMS took possession of the records and cleared the remaining
       non-record s for removal from the SEC. The eight boxes were then sent to the employee' s new
       private sector employer. The SEC OIG recovered the records in ORMS ' possession, the eight
       boxes that had been sent, as well as documents recovered from the employee's home. The OIG 's
       review of th e boxes resulted in sensitive and nonpublic information being found in each of the
       eight boxes.

       SEC Regulation (SECR) 7-1 , Records and Information Management Program, dated November
       14, 2012, establishes the SEC's policy governing the creation, organization, maintenance, use,
       and disposition of all SEC records. Section 7.2.4. ofSECR 7-1 authorizes ORMS to implement
       safeguard s to prevent the unauthorized access, removal, loss, or destruction of SEC records, and
       to recover records unlawfully removed from the custody of the Commission.

       In accordance with the SEC's Employee Exit Portal (EEP), at the time of the incident ORMS
       was responsible for reviewing and clearing documents that employees plan to take with them
       when they leave the SEC to ensure that federal records are not removed. The OIG' s
       investigation revealed that, other than the separating employee and an employee from ORMS, no
       other SEC employees reviewed the documents and materials that were to be removed from the
       SEC. The OIG also noted that the originating SEC divisions and offices would have the relevant
       knowledge for determining which documents should or should not be taken from the SEC, rather
       than ORMS employees. We also noted that the SEC's EEP did not contain any instructions
       about the exit procedures for records management and did not require separating employees to
       certify that they were not removing nonpublic info1mation and that they had returned any
       docum~nts taken offsite for teleworking or other purposes.
Subsequent to the OIG's investigation, ORMS published a new directive, Operating Procedure 7­
le, entitled "Removal of Records and Non-Public Information by Departing SEC Personnel" in
January 2014. 1 The objective of that directive is to deter the removal of records and nonpublic
information by departing personnel. The directive includes information about the types of
documents that employees cannot keep or remove upon their separation from the SEC. In
addition, that directive requires employees to complete a records clearance form acknowledging
that they have complied with the instructions within the directive and that they have returned and
surrendered "documentary material" that employees cannot keep or remove. However, the
directive does not provide for a review of documents the employee plans to remove from the
SEC by the employee's office or division.

To further strengthen the SEC's exit procedures and to ensure that nonpublic or sensitive
information is not subject to unauthorized release or disclosure when employees leave the SEC,
the OIG is making two recommendations, listed below, to the Office of the Chief Operating
Officer (OCOO). Within the next 45 days, please provide the OIG with a written corrective
action plan (CAP) that addresses these recommendations. The CAP should include information
such as the name of the designated responsible official or point of contact for the
recommendations, estimated timeframes for completing required actions, and milestones
identifying how the OCOO will address the recommendations.

Recommendation 1

The Office of the Chief Operating Officer should revise the agency's exit procedures and
relevant policies for records management to require the divisions or offices of separating
employees to review documents that the employees plan to remove from the SEC and determine
which documents separating employees are authorized to take. Further, that determination
should be included and clearly documented in the SEC's Electronic Exit Program prior to
employees separating from the SEC.

Recommendation 2

The Office of the Chief Operating Officer should advise all employees, through training,
correspondence, and other means, about the revised exit procedures and an employee's
obligation to ensure nonpublic information is not improperly disclosed.

cc: 	      Mary Jo White, Chair
           Luis A. Aguilar, Commissioner
           Daniel M. Gallagher, Commissioner
           KaraM. Stein, Commissioner
           Michael S. Piwowar, Commissioner
           Erica Williams, Deputy Chief of Staff, Office of the Chair
           Barry D. Walters, Director, Office of Support Operations
           David B. Brown, Archivist, Office of Records Management Services
           Darlene Pryor, Management and Program Analyst, Office of the Chief Operating
            Officer

1
    The directive is dated November 21, 2013, but it was issued to staff on January 9, 2014.
                                                            2

